       #' .,p




Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




      MIAMI AREA HMOs:
MEDICARE ENROLLMENT PATTERNS




                :vIC& .




                          Richard P. Kusserow
                          INSPECfOR GENERAL

      'li\.-.taa             NOVEMBER 1991
                                 .,p




Department of Health and Human                                    Services
               OFFICE OF
          INSPECTOR GENERAL




      MIAMI AREA HMOs:
MEDICARE ENROLLMENT PATTERNS




                                   :vIC&




                                           Richard P. Kusserow
                                           INSPECfOR GENERAL

                         'li\.-cl!la           OEI- O4-91-00640
              EXECUTIVE SUMMAR Y

PURPOSE€

Our purpose was to determine if and why enrollment and disenrollment patterns in
the Miami area Health Maintenance Organizations differ from those nationally.€

BACKGROUND€

In the fall of 1990, newspapers in the Miami area published articles critical of local€
Health Maintenance Organizations ' (HMO) practices. Concerned about the situations
described in these articles , the Administrator of the Health Care Financing
Administration (HCFA) requested the Inspector General to examine the marketing
practices and enrollment patterns of South Florida HMOs. This report deals with
enrollment patterns. Marketing practices are described in a separate report (OEI- 04-
91- 00630).

Medicare is the Federal health insurance program available to most individuals age 65
and older and certain disabled people. Most Medicare beneficiaries receive services
under the fee-for-service sector of the health care system. Under fee- for-service
beneficiaries may choose their own physicians, hospitals , and other medical care
providers. The beneficiary is required to satisfy a deductible , then Medicare pays 80
percent of the allowable charges for covered physician and outpatient   services.

Medicare beneficiaries also may choose to receive their health care from a prepaid
health organization such as an HMO. These plans contract with HCF A to provide or
arrange for all Medicare covered services. Beneficiaries enrolled in HMOs that
contract on a risk basis are considered to be "locked in " to the services provided by
that plan. Except for emergency care and urgently-needed care when out of the
HMO' s service area , beneficiaries agree to receive all their medical care through the
providers affiliated with the HMO. Neither the Medicare program nor the HMO is
liable for services , other than emergency or urgently-needed care received outside the
risk-contracting plan.

The HMO market in the Miami area is unique in the number of elderly and the€
number of Medicare-contracted HMOs. In the three county metropolitan Miami area€
approximately 18 percent of the population is over age 65. Five HMOs currently
serve beneficiaries in the Miami area. Since the benefits HMOs offer are quite€
similar , marketing of the programs is highly competitive.€
FINDINGS€

This study of Medicare beneficiary enrollment practices in Miami area HMOs found€
that:€

              The proportion of Medicare beneficiaries choosing HMOs over
              Medicare fee-for-service is higher than nationally.

              Medicare enrollees change plans more frequently than any other group€
              in the nation.



              Most Medicare beneficiaries who leave one HMO choose another HMO
              over fee-for-service coverage.

              Excessive turnover of beneficiaries among HMOs may jeopardize patient€
              care.€

              Inappropriate enrollments result in unnecessary costs to HCF A and€
              SSA.€

RECOMMENDATIONS€

The following recommendations target Medicare prepaid health care program
vulnerabilities , as well as addressing troublesome situations encountered during this€
inspection of South Florida HMOs.

       The HCF A should establish a policy limiting enrollment to one " open   season

       (opportunity to enroll) per year.€

       The HCFA should establish an on- line system to identify and review cases of€
       frequent enrollment change.



       In the three-county Miami service area , HCF A should test the efficacy of a
       third party handling HMO enrollment actions.€

       The HCFA should impose a " cooling off' period allowing beneficiaries to€
       reconsider HMO enrollment decisions before enrollment applications are€
       processed.€

COMMENTS€

Comments on the draft report were received from HCF A and the Assistant Secretary
for Planning and Evaluation (ASPE). Both agencies agree that HCFA should identify
and review frequent enrollment changes , and HCF A believes they now have that€
capability. While ASPE supported the concept of a "cooling off' period for Medicare€
enrollees , HCF A thinks a " cooling off' period is not needed.€
Neither agency concurred with the other recommendations. We will defer our
comments on their responses until the OIG completes its national study on HMO
disenrollments (OEI- 06-91- 00730).

The comments of HCFA and ASPE can be found in appendix E. We have responded
to each technical change suggested by HCF A and ASPE.
               . . . ..      ...... ................... . . .. .. .. . . . . . . . . . . . . . . .....
                     . . .. . . . . . . . . . . . . . . . . . . . . . . . . . ...
                                                                              . . . ..
                                                                                    . . . . . . . . . . .




                    TABLE OF CONTENTS€
EXECUTIVE SUMMARY

IN1'RODUCTION ................................................€

   Purpose ..................................................... €
   Background ..................................................€
   Scope ......................................................€
   Methods ....................................................€

FINDINGS                                                                             ..................5
  In the Miami area , the proportion of Medicare€
  beneficiaries choosing HMOs over Medicare€
  fee-for-service is higher than nationally . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5€

  Medicare enrollees in Miami area HMOs disenroll
  more frequently than any other group in the nation

  When Medicare beneficiaries in Miami leave one HMO€
  most choose another HMO over fee-for-service coverage . . . . . . . . . . . . . . . . . 8€

  Excessive turnover may jeopardize patient care

   Inappropriate enrollments lead to unnecessary costs                         .....................9
CONCLUSION                                                                             ..... ..... ...... 10

RECOMMENDATIONS

APPENDIXES

  APPENDIX A: Methodology .................................... A-

  APPENDIX B: Beneficiary Telephone Survey: Enrollment Decisions of
  Beneficiaries Served by South Florida HMOs . . . . . . . . . . . . . . . . . . . . . . .. B-

  APPENDIX C: Survey of South Florida Physicians . . . . . . . . . . . . . . . . . . .. C-

  APPENDIX D: Effect of Humana on Data Analysis. . . . . . . . . . . . . . . . . . . D-

  APPENDIX E: Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . .. E-
                                  INTRODUCTION
    PURPOSE


                                            nationally.
   Our purpose was to determine if and why enrollment and disenrollment patterns in
   the Miami area differ from those

   This inspection was requested by the Administrator of the Health Care Financing
   Administration (HCFA).

   BACKGROUND

   In the fall of 1990, newspapers in South Florida published articles critical of local
   HMO sales and marketing practices. The articles also claimed that beneficiaries are
   not adequately informed of the "lock- " feature of HMO enrollment. ! Lock-
   requires that with the exception of emergencies and urgently needed care when out
   the area , all medical care must be received from HMO affiliated providers.

   Concerned about these newspaper articles , the Administrator of HCF A requested the
   Inspector General to examine HMO enrollment and disenrollment patterns in South
   Florida. An inspection of Marketing Practices of South Florida HMOs Serving
   Medicare Beneficiaries (OEI- 04- 91- 00630) was also requested.

   The Medicare Program

   Medicare is a Federal health insurance program for individuals age 65 and older and
   for certain categories of disabled people. Authorized in 1965 by Title XVIII of the
   Social Security Act, Medicare serves over 33 million beneficiaries nationwide. Within
   the Department of Health and Human Services , HCF A is responsible for
   administering the Medicare Program.

   Method of Service

   In most geographic areas , Medicare beneficiaries obtain medical care through the fee-
   for-service program. However, in some places , there are two ways in which
   beneficiaries may obtain medical care covered by Medicare.




    Bergal, J. , and Schult ,F. , "Patients Peel Betrayed by HMO: The   Sun- Sentinel ,   Ft. Lauderdale, FL
October 23, 1990 ,   pp lA and 6A
Regular Fee-for-Service Coverage - Beneficiaries choose each of their own physicians€
hospitals , and other medical care providers. The beneficiary pays the Medicare€
premiums , deductibles for inpatient and outpatient care , and 20 percent of the€
allowable charge for covered physician and other outpatient   services.€

Prepaid Health Plans - Beneficiaries enroll in Medicare-contracted health€
organizations which manage their medical care. Beneficiaries continue to pay€
Medicare premiums. They may pay      the plan a monthly premium and/or a copayment€
for each service received. However, they do not pay the deductibles or 20 percent of€
physician and outpatient charges required under the fee-for-service program. As a€
result , these beneficiaries do not need Medicare supplemental policies.€

A beneficiary can be in only one program at a time. He/she cannot combine fee-for-€
service and prepaid health plans.€

The most common types of Medicare prepaid health plans are risk-contracted HMOs.€
These HMOs are considered " at financial risk" because they agree to provide a€
beneficiary s total medical care for a set amount paid monthly by Medicare.€

These HMOs serve beneficiaries who live within a defined geographic area. They are€
responsible for providing the full range of Medicare services. They may offer other€
benefits not covered by Medicare , such as prescription drugs.€

After joining an HMO , the beneficiary selects a primary care physician (PCP)€
affiliated with the plan. AIl medical care is managed by that PCP. The PCP either€
provides the services needed or refers the beneficiary to appropriate specialists or€
other health care providers.



The HMO network of providers may be either HMO employees working in an HMO-€
owned facility or private physicians contracting with the HMO to provide services to€
the members. Some HMOs use a combination of providers.€

Beneficiaries are required to obtain all their medical care through the providers€
affiliated with the HMO , except for emergency and urgently needed care.€

In an emergency, beneficiaries can receive care anywhere. The HMO will pay for, the€
care , even if the provider is not affiliated with the HMO. The HMOs also will pay for€
urgently-needed care a beneficiary receives when out of the HMO' s service area.€
Neither the HMO nor Medicare will pay for non-emergency or non-urgent care€
obtained outside the HMO without prior approval of the HMO. The beneficiary is€
responsible for those charges.



Uniqueness of Miami HMO Market€

The HMO market in the three-county Miami area is unique in the number of elderly€
and the number of risk-contract HMOs.€
   Nationally, persons over age 65 comprise 13 percent of the population. In the three-
   county Miami area , approximately 18 percent of the population is over the age of 65.
   In 2 of the 3 counties , over 20 percent of the population is over 65. 2 Some live in
   Florida full- time. Others live there only part of the year , and reside in other States
   the rest of the time.


   In most locations where HMOs are accessible to Medicare beneficiaries , only one or
   two are available from which to choose. In the Miami area , five risk-contract HMOs
   currently serve beneficiaries. Approximately 33 percent of the elderly are enrolled in
   one of those HMOs. Two additional HMOs have applied to serve beneficiaries in the
   Miami area and will be granted contracts if they meet HCF A requirements. Since the
   benefits HMOs offer are quite similar, marketing of the programs is highly
   competitive.

   SCOPE

   This inspection examined the enrollment and disenrollment practices of Medicare
   beneficiaries served by the five Medicare contracted HMOs operating in the
   metropolitan Miami area during Federal fiscal years 1988 through 1990 (October 1
   1987 through September 30, 1990). The five HMOs , and counties included in their
   service areas , are shown below.

    NAME OF HMO                                     I COUNTIES INCLUDED IN SERVICE AREA
    Humana Medical Plan                                Broward , Dade and Palm Beach€
    CAC- RAMSAY                                        Broward and Dade

    Av-Med Health Plan                                 Broward , Dade and Palm Beach€
    Health Options of South Florida                    Broward and Dade

    CareFlorida                                        Broward , Dade and Palm Beach

   AIthough these HMOs may also have operations outside the Miami area , only the
   service areas listed were included in this inspection.

   METHODS

   Information for this inspection was obtained from a variety of sources. We:

           reviewed State and Federal regulations governing HMOs;

           interviewed HCF A and Florida Department of Insurance officials;

           reviewed prior studies of contracted HMO operations;



     Demographic data from county planning departments in Dade , Broward , and Palm Beach Counties and
the u.S. Department of Commerce; Bureau of the Census.
       reviewed a General Accounting Office audit report;€

       reviewed various newspaper articles relating to South Florida HMOs;

       reviewed financial and enrollment data for Medicare beneficiaries enrolled in€
       contract HMOs; and

       conducted telephone and mail surveys of Medicare beneficiaries and physicians.

To determine reasons beneficiaries changed HMO plans , we asked beneficiaries
themselves. We randomly selected 237 Medicare beneficiaries from all beneficiaries
who:

       enrolled in a Miami area HMO between October 1 , 1987 and September 30
       1990; and

       changed enrollment at least four times during that period.

We interviewed these beneficiaries by phone in January 1991. The response rate was
60 percent. Appendix B contains the survey instrument and response frequencies.

To get physicians ' opinions on reasons for and effects of rapid changes in HMO
enrollment , we queried 217 South Florida physicians by mail in January 1991. Nearly
half responded. Appendix C contains the survey instrument and responses.

The Florida Humana HMO is the largest in the country. Humana operates in several
geographic areas of the State. In most of those areas , unlike Miami , Humana has no
competition. We were not able to segregate information about Humana into its
several Florida service areas. Therefore when Humana is included , the data is for the
entire State. For this reason, we have removed Humana from a number of the
calculations reported in this document. A more detailed explanation of Humana
effect on the data is provided in appendix D.
                                  FINDINGS€
In the Miami area, the proportion of Medicare beneficiaries choosing HMOs over
Medicare fee-for-service is higher than nationally.

Nationally, at the time of this study, over 1.3 million Medicare beneficiaries were
enrolled in risk contract HMOs. Seventeen percent of them presently live in the
Miami area. In fact , in the Miami area , one out of three Medicare beneficiaries is
enrolled in an HMO , compared to one in 20 nationally.

The out-of-pocket cost for an HMO member in Miami is considerably less than for
the fee-for-service   beneficiary. AIthough beneficiaries who enroll in HMOs are still
required to pay the standard Medicare Part B premium , they do not need to fulfill any
deductibles for their care to be fully covered. AIthough HCF A regulations allow
HMOs to charge an additional monthly premium, none of the Miami area HMOs do
so. Only two of the HMOs charge nominal copayments for physician services.

Ninety- two percent of the physicians responding to our survey believe Miami area
beneficiaries choose HMOs over fee-for-service because the costs to beneficiaries are
lower than fee- for-service.

Medicare enroOees in Miami area HMOs disenroll more frequently than any other group
in the nation.



Whereas nationally about 12 percent of Medicare HMO enrollees disenroll within one
year of joining, in the Miami area , 28 percent do so.

Some beneficiaries have made a very high number of changes. In the three years
studied , 2 276 beneficiaries had enrolled four or more times. Of these , 82 percent live
in the Miami area. As the numbers of enrollments increase , the proportion of
multiple enrollees living in the Miami area also increases. For example , of all
Medicare enrollees who have enrolled 6 or more times , 98 percent live in the Miami
area.
This phenomenon is illustrated in the following table.€

      MEDICARE BENEFICIARY ENROUMENlS IN HMOs: NAll0N AND SOUTH FLORIDA€
                         All HMOs Nationally      South Florida HMOs     Percent of National€
                                                                             HMO Talal€
 Number of
 Beneficiary
 Enrollments                   881 861                   182 405                   21%
 Beneficiaries
 Enrolled 4 or More
 Times                             276                      866                    82%
 Beneficiaries
 Enrolled 6 or More
 Times                             364                      356                    98%

South Florida HMOs experience beneficiary disenrollment rates that dramatically
exceed the national quarterly disenrollment averages. Even A V-MED' s disenrollment
rate , which is closest to the national average at six months, is one- third higher at 12
months.


                      RAPID TURNOVER AMONG SOUTH FLORIDA HMOs
                                                   Cumulative Disenrollment€
                                      Within   6 Months               Within 12 Months€
 All HMOs , excluding South
 Florida HMOs€                                                               12%

 South Florida HMOs                            17%                           28%
 Humana                                        16%                           25%
 CAC                                           21%                           35%
 Av- Med                                                                     16%
 Health Options€                               22%                           37%
 CareFlorida                                   29%                           46%

In efforts unrelated to this inspection , HCFA and the U. S. Public Health Service
previously determined that about 10 percent of the elderly population report having
no continuous source of health care. The national HMO disenrollment figures above
are not inconsistent with this. However , South Florida HMO disenrollment, averaging
28 percent over 12 months , far exceeds this general experience of the elderly.€

We examined the records of a sample of 237 Miami area Medicare beneficiaries who€
had 4 or more HMO enrollments within three years.
We found that:

              140 changed HMOs four times;

               45 changed five times; and

               52 (22 percent) changed 6 or more times.

When we asked these beneficiaries if they planned to change again , 13 percent of the
respondents said they do.

The HCF A guidelines allow beneficiaries to change the form of their Medicare
coverage as often as every 30 days. By contrast , most employers who offer several
private health insurance plans to their employees , allow just one opportunity a year to
change plans. The HCF A policy has set up a potential for as many as 12 changes a
year. Nationally this license seems no cause for concern , however in the Miami area it
sets the stage for high enrollment turnovers.

The many choices of HMOs available to the Miami area Medicare beneficiaries may
be an incentive to switch plans frequently. There are five HMOs for Medicare
beneficiaries to choose from, as well as the regular fee-for-service Medicare system.
Four of the 5 Miami area HMOs - CareFlorida , Av- Med , Health Options and CAC -
operate only in the 3-county Miami service area. The fifth , Humana , the HMO with
the nation s largest number of enrollments during this period , operates in Tampa/St.
Petersburg, Orlando , and Daytona , as well as Miami. (See appendix D for a
description of the effect of Humana s disproportionate size and lack of competition in
three of its four Florida markets , on the analysis of HMOs in this report).

Fifty-six percent of the beneficiaries responding to our survey say they changed
enrollment in the past because , simply, they didn t like the plans they were in. When
asked about         the most recent change

              59 percent said they were dissatisfied with the HMOs doctors or services;

              17 percent said they changed because the HMO had financial problems or the
              ownership changed; and

              16 percent cited HMO location , or lack of transportation.

When asked to think back and give reasons why they    had ever changed plans , 33
percent of these respondents cited at least one reason related to the "lock- " feature
of HMO enrollment:

              16 percent said they wanted to use a particular doctor who was not affiliated
              with their plan;
       14 percent said their doctor left the plan   , or   advised them to change plans;

       11 percent said they could not get the specialty care they needed within the
       HMO; and

       10 percent said they needed to see a doctor more often than their HMO would
       allow.

Twenty-seven respondents (20 percent) said they had changed coverage on advice of
an HMO sales representative , but only four beneficiaries said they had been offered a
free gift or other incentive to change.

Friends and relatives are as likely as sales representatives to influence beneficiaries to
change HMOs. Nineteen percent of the respondents said they had changed plans on
the advice of a friend or relative.

Physicians we surveyed generally confirmed these findings. They suggested that
Medicare beneficiaries change HMOs because of:

       quality of care;


       restrictions and limitations on services;

       limitations in number of HMO physicians, especially consultants

       enrollee misunderstanding of the HMO system; and

       manipulation by HMO sales representatives.

In- person interviews during the HMO marketing practices inspection showed some
beneficiaries who changed HMOs frequently were exposed to unethical HMO
marketing practices. Others were not fully aware of their enrollment actions. These
findings are described in detail in the inspection entitled Marketing Practices of South
Florida HMOs Serving Medicare Beneficiaries (OEI- 04-91- 00630).

 When Medicare beneficiaries in Miami leave one HMO, most choose another HMO over
fee-for-service coverage.

This inspection shows Medicare HMO enrollees in the Miami area disenroll from their
HMOs with much greater frequency than their peers nationwide. In the Miami area
28 percent disenroll within one year vs. 12 percent nationwide. AIthough the reasons
most often given for leaving an HMO relate to dissatisfaction with one or more
features of the HMO , preference for the HMO form of coverage is remarkably high.
Figures from this study show that nearly three of four Miami area beneficiaries who
leave HMOs join another HMO immediately or within the next 12 months. The
following table (which excludes Humana for reasons explained in appendix D)
illustrates this pattern.

                  ACTIONS OF MEDICARE BENEFICIARIES WHO DISENROLLED
                            Went to Fee-For-Svc.€   Went to Competing   Went to Fee-For-Svc.€
                              For at Least 12€            HMO€           But Joined HMO
                                  Months€                                Within 12 Months
 CareFlorida                        20%€                  67%€                 13%€
 Av-Med                             38%€                  49%€                 13%€
 Health Options                     31%€                  55%€                 15%€
 CAC                                28%€                  57%€                 15%€
 Combined                           26%€                  60%€                 14%€
 National                           68%€                   13%€                19%€

Excessive turnover may jeopardize patient care.

Nearly all physicians who responded to our survey are affiliated with one or more
HMOs. AIl serve Medicare patients. Sixty percent of them say they believe frequent
HMO changes disrupt the continuity of care. Fifteen percent say frequent changes
degrade the quality of care.

Inappropriate enrollments lead to unnecessary com.€

The HCF A Region IV office estimates that over the past three years it has received€
    000 inquiries from beneficiaries regarding HMOs. The office investigated 1 500€
potentially fraudulent HMO enrollments and 1 800 failures to disenroll beneficiaries in€
a timely manner.€

Reviewing and resolving HMO enrollment problems now requires three HCF A
Regional office staff. Further , many of the inquiries received by HCFA originate in an
SSA District Office , or are ultimately referred to SSA for resolution.

There are approximately 3 000 enrollments and 2 000 disenrollments in the Miami
area per month. The HCF A estimates that 20 percent of these , or 12 000
enrollment/disenrollment actions per year , may be inappropriate. Better informed
beneficiaries and more effective enrollment verification procedures by HMOs would
reduce significantly the number of inappropriate actions , resulting in savings to both
HCFA and SSA.
CONCLUSION

Beneficiaries enrolled in Miami area HMOs change plans more frequently than any
other group in the nation. They disenroll because of dissatisfaction with their HMOs
care and services. When they leave an HMO , however, most beneficiaries enroll in
another HMO. Despite problems they encounter with HMOs , beneficiaries in the
Miami area who have once joined an HMO prefer HMO coverage to fee-for-service.

Because some of the beneficiaries who change most 0ften are particularly vulnerable
HCF  A should be vigilant to assure that these people are not abused. The quality and
continuity of care for these multiple enrollees may unduly suffer. Excessive and
inappropriate enrollment actions result in avoidablecosts to   HCFA and SSA. These
conditions warrant that steps must be taken to protect both beneficiaries and the
integrity of the health care delivery system.
                    RECOMMENDA TIONS€
A number of HCF A policies and HMO practices leave the Medicare prepaid health
care program vulnerable to abuse. The following recommendations target those
vulnerabilities , as well as address troublesome situations encountered during this
inspection of South Florida HMOs.

       The HCFA should establish a policy limiting enrollment to one "open   season
       (opportunity to enroll) per year.

Presently, HCF A rules allow Medicare beneficiaries to change their health insurance
coverage as frequently as every month. Disenrollment from prior coverage is
automatic when the new enrollment occurs. This policy allows beneficiaries to change
plans without thoughtful consideration of the pros and cons of their actions. The
policy also encourages an aggressive approach to sales , since it allows a new sale to
each enrollee every thirty days.

This policy clearly undermines HCFA' s commitment to managed health care. It also
increases the likelihood of confusion among beneficiaries over coverage issues , and
may jeopardize the well-being of those who have not made thoughtful decisions.
Physicians queried in this inspection indicate that frequent change of health care
coverage disrupts continuity of care and may affect the quality of care.

Based on health insurance industry norms , HCF A should establish an annual " open
season " so that changes in coverage may be made only once a year. The effective
date of change should be no sooner than 30 days after a new plan/form of coverage is
selected by the beneficiary.€

To safeguard that beneficiaries are not disadvantaged by enrollment decisions contrary
to their best interests , HCF A should allow disenrollment " for cause " between open
season periods. The HCF A should develop criteria for determining whether sufficient
cause " is established.

       The HCFA should establish an on-line system to identify and review cases of
      frequent enrollment change.


The HCFA' s automated systems are capable of identifying individual Medicare
beneficiaries who have applied for HMO enrollment at the point each new enrollment
begins. The agency should   capitalize on this capability by:

       determining an appropriate threshold for number of changes acceptable over a
       specified period of time (e.g. , two per year) or minimum time between new
       enrollments (e.g. , six months);
       automatically scanning new enrollments for beneficiaries who exceed those
       thresholds;

       alerting the new HMO-of-enrollment to these cases , with adequate beneficiary
       identification information;

       requiring the HMO to explain and document the circumstances surrounding the
       sale and application for enrollment; and

       developing corrective actions and penalties for HMOs found to have
       inappropriately enrolled Medicare beneficiaries.

We note that HCFA has already taken preliminary steps to develop such a system.
We endorse the agency s early efforts in this regard. The refinements outlined above
are recommended to strengthen and standardize HCF A' s monitoring of excessively
frequent HMO enrollment change.

The system recommended here would be obviated by implementation of
Recommendation #3 to follow.

       In the three-county Miami service area, HCFA should test the efficacy   of a third
       party handling HMO enrollment actions.
A major vulnerability of the present system is that an HMO sales agent can sign up a
Medicare beneficiary in his/her home at the time of the sales presentation.
Beneficiaries may not object to this practice in many instances, since it is convenient.
However , in cases where the beneficiary is intimidated by the sales agent , he/she may
sign-up just to get the   salesperson to leave.

AIthough the HMOs included in this review do have procedures for verifying that
beneficiaries understand certain provisions of HMO coverage , this may not be
adequate protection against inappropriate sales practices. We note in this report that
one HMO allows the verification call to be made while the salesperson is stilI present
in the beneficiary   s home.

The best safeguard for an informed choice by the beneficiary is to ensure that the
decision to enroll in a new HMO is made independent of the salesperson and even of
the HMO.

We recommend that HCFA contract , on a two to three year pilot basis , with a third
party to provide HMO enrollment services. One possible enrollment agent is the
Social Security Administration (SSA) District Offices (DO). In each DO in the Miami
area , HCF A could fund a position or part of a position for a service representative to
advise new enrollees on their decisions , and process the enrollments. An SSA service
representative would be able to provide objective , balanced information on health
coverage to the beneficiary, and answer applicants ' questions stemming from the sales€
presentation.€

This proposal is consistent with Secretary Sullivan s Program Direction which calls for
a more expansive role for SSA district offices in integrating SSA and other health and
human services.€

If an arrangement cannot be made with SSA, HCF A might contract for this service
with a private contractor in the Miami area. Such services could possibly be provided
under the auspices of senior citizen or other neighborhood service centers. Assuming
proper guidelines to the contractor, this recommendation would obviate
Recommendations #1 and #2 above.

       The HCFA should impose a "cooling off' period allowing beneficiaries to€
       reconsider HMO enrollment decisions before enrollment applications are processed.€

Florida law now requires that , after an individual has applied to enroll in an HMO , a
verification phone call must be made by the HMO to ascertain the applicant'
understanding of the "lock- " feature of HMO enrollment , and assure that he/she
affirms his enrollment decision. This consumer protection step would seem a good
model for HCF A to adopt , with application nationally, to cover Medicare beneficiary
enrollments in prepaid health plans.

To further refine Florida s model , HCF A should require that enrollment verification
take place no sooner than 72 hours after the beneficiary has signed his/her application
to enroll. This " cooling-off' period is consistent with consumer contract protection in
many states.
                             APPENDIX A€
                      METHODS AND SAMPLE SELECTIONS


Information for this inspection was obtained from a variety of sources. We:

       reviewed State and Federal regulations governing HMOs;€

       interviewed HCF A and Florida Department of Insurance officials;

       reviewed prior studies of risk-contracted HMO operations , U. S. GAO Audit
       Reports , and various newspaper articles relating to the South Florida HMOs;

       reviewed enrollment data for Medicare beneficiaries enrolled in risk contract
       HMOs;

       conducted telephone interviews with Medicare beneficiaries served by Miami
       area HMOs; and

       conducted a mail survey of physicians practicing in South Florida.

Review of State and Federal Regulations€

We examined State and Federal regulations governing HMO enrollment practices.
This information was compared to data obtained from beneficiaries who were served
by the HMOs and from beneficiary enrollment data maintained by HCF A.

Discussions with officialr of HCF A and Florida Department of Insurance

We met with officials from HCF A and discussed beneficiary enrollment characteristics
identified during their monitoring of HMO activities. We also met with officials of the
State of Florida s Department of Insurance and discussed the results of their financial
and performance audits for South Florida HMOs.

Prior studies of risk contracted HMO operations , U. S. GAO Audit Reports , and
various newspaper articles relating to the South Florida HMOs

We reviewed the results of prior studies and investigative reports of risk contract
HMOs.

We also reviewed relevant newspaper articles regarding South Florida HMO business
practices. These articles indicated Medicare beneficiaries are sometimes
                                                                           , p.




  inappropriately enrolled and not adequately informed of the requirements related to
  membership in an HMO.

  Enrollment data for Medicare beneficiaries enrolled in risk contract HMOs

  Episodes of HMO disenrollments may be measured using one of two basic methods.
  One approach uses a time-related disenrollment rate (or ratio) while a second
  approach uses a cohort-based disenrollment rate. We used a cohort-based
  methodology in this inspection.

  The ratio method expresses disenrollments in a given time period as a percentage of
  total enrollment in the same period , where total enrollment is defined as the sum of
  enrollment at the start of the period plus new enrollees during the period.

  The cohort-based methodology tracks a cohort of enrollees over time and determines
  what percentage of them disenroll within a certain length of time after joining the
  HMO.

  We obtained information on each episode of beneficiary disenrollment from HCFA'
  Group Health Plan Operations (GHPO) master file and computed enrollment
  patterns for all beneficiaries enrolled in South Florida HMOs during Federal fiscal
  years 1988 and 1989 (October 1 ,   1987 through September 30, 1989). Cumulative
  disenrollment rates by duration of enrollment were computed for each HMO on a
  three , six, nine and twelve month basis.

  Enrollment data were examined for beneficiaries enrolled in South Florida HMOs.
  The data was obtained from the Group Health Plan Operations (GHPO) master file
  and the Medicare Automated Data Retrieval System (MADRS).

  Telephone interviews with Medicare beneficiaries served by Miami area HMOs

  We developed a survey instrument and asked beneficiaries why they changed HMO
  plans. A random sample of 237 Medicare beneficiary names were selected from the
  GHPO file for use in the telephone survey.

  This sample was selected from the universe of Medicare beneficiaries who: (1) had
  enrolled in Miami area HMOs during the period October 1 , 1987 through September
    , 1990 and (2) had changed HMO plans at least four times during that period.
  Fifteen of the beneficiaries had expired , reducing the sample size to 225 beneficiaries.

  Telephone interviews were performed during January 14-       , 1991. One hundred thirty
  six beneficiaries (60 percent) were interviewed.



   Mathmatica Research Policy, Inc. "DISENROILMENT EXPERIENCES IN THE MEDICARE HMO
AND CMP RISK PROGRAM: 1985 TO 1988 , HCFA Contract No. 500- 88-0006, 1990 20.
Questionnaires mailed to physicians practicing in South Florida

For information on why physicians thought beneficiaries changed HMO plans so
frequently, we developed a survey instrument and mailed questionnaires to 217
physicians practicing in the South Florida area. The survey instruments were mailed
January 25 ,
           1991. One hundred and two physicians responded , a response rate was 47
percent. Appendix D contains the survey instrument and total responses.
                                  APPENDIX
              RESPONDENT ANSWERS: BENEFICIARY SURVEY
             ENROILMENT PRACTICES OF MEDICARE BENEFICIARIES
                 SERVED BY SOUTH FLORIDA HMOs


We collected proxy responses when the beneficiary was not available for this interview.
An analysis of the answers provided by the different types of respondents (beneficiary,
spouse , and other) revealed there was no difference in the outcome.


                           NUMBER OF RESPONDENTS, BY HMO

Respondents                                           HMO Plan
  65 Humana Gold Plus Plan (Dade , Broward , & Palm Beach)€
  26 CAC- RAMSA Y€
  11 Av- Med Health Plan€
             Health Options of South Florida
  29 CareFlorida (Formerly Heritage)
 136 Total Respondents


100.         Are you a year-round Florida resident or do you live in Florida only part of the
             year?

   Percent               Response
  96.3                   131              Live in Florida year-round
                                          Live in Florida only part of the year

       1.5                                Respondents were unable to answer question€

 100.                    136              Total
200. Primary reasons     beneficiaries changed plans.€

   SEQUENCE OF                                   BENEFICIARY RESPONSES
    RESPONSE€                                                                           TOTAL€
         FIRST                                                                              135€
        SECOND€
        THIRD€
        FOURTH€
          Total              78   24 I      23      151    11     10
                                                                             I 38           205
        RESPN %              38   12 I      11                   ISl         I 19          1 ()()%



REASONS WHY BENEFICIARIFS CHANGED PIANS (CODES 1 THROUGH 8)€

        Dissatisfied with doctors and/or services.€
        HMO had financial problems or plan changed ownership.€
        Beneficiary experienced transportation problems or desired a plan closer to
        his/her home.€
        Restrictions or limitations on services ,   including specialists referrals.€
        Quality of care issues.€
        Marketing tactics by HMO sales persons.€
        Followed physician when HMO went out of           business.

        Other€

300.    Did (CURRENT HMO) offer a free gift to enroll in their plan?€

  Percent         Response
                                          Beneficiaries didn t remember
  94.                 128€
                                          Yes€

 100.                 136                 Total€

        * Type of free gift provided to the BeneficiaI)':

        1. Beneficiary never picked      up gift.
        2. Pocket book€
        3. Transportation from home to        doctor s office.
        4. Cloth bag & $25 coupons for        use at the grocery store.€
400.         When you signed the application form for (CURRENT HMO), was it clear€
             that you were enrolling in an HMO?€

Percent               Response
                                           Beneficiaries didn t remember
   7.4
  88.                      121             Yes€

 100.                      136             Total€


500.         When you joined (CURRENT HMO) was it clear that you could .m!!x use the
             services of the HMO' s doctors and hospitals (EXCEPT IN EMERGENCIES)?

Percent                Response
                                           Beneficiaries didn t remember
   7.4
  88.                      121             Yes€

 100.                      136             Total€

Some people give the following reasons         for changing health care plans.   Have you ever
changed plans because of any of these reasons?


600.         You needed the services of a specialist and those services were not available in€
             your plan?€

Percent              Response
       1.5                                 Beneficiaries didn t remember
  87.                      119€
  11.0                     15*             Yes€

 100.                      136             Total€

             * Type of specialist not available in plan:€

             1. Chiropractor

             2. Cardiologist

             3. Dentist

             4. Podiatrist - 2

             5. Gastroenterologist - 2

             6. Urologist - 3

             7. Neurologist -

             8. Ophthalmologist

             9. Diabetes shots required

601.      You needed to see a doctor more often than your plan would allow?

 Percent             Response
                                        Beneficiaries didn t remember
   86.	               118
                                        Yes

 100.                 136               Total


602.      You wanted to use a specific doctor and he/she was not in your plan?

  Percent            Response
                                        Beneficiaries didn t remember
  81.6                111
   15.                                  Yes

 100.                 136               Total


603.      Your doctor advised you to change to another plan?

  Percent            Response
                                        Beneficiaries didn t remember
  92.	                126
                                        Yes

 100.                 136               Total


          Reasons doctor advised beneficiary to change plan:

          1. Follow doctor - Last HMO went out of business.
          2. Transportation - Closer to home.
          3. Dentist advised beneficiary that only minimal dental care was required.
          4. Followed doctor from one   HMO to another - 2
          5. Reason not provided.




                                              B - 4

604.         Your doctor left the plan and you wanted to continue with that doctor?€

  Percent               Response€
                                           Beneficiaries didn t remember
   85.                    116€
   12.                                     Yes€

  100.                    136              Total€


605.         An HMO sales representative advised you to join a new plan?€

 Percent                Response€
                                           Beneficiaries didn t remember
   77.                    105€
   19.                                     Yes€

  100.                    136              Total€


606.         A free gift or a special offer was made to you?

  Percent               Response€
       1.5                                 Beneficiaries didn t remember
   97.                   133€
                                           Yes€

 100.                    136               Total€


607.         A friend or relative suggested that you join a different plan?€

  Percent               Response€
                                           Beneficiaries didn t remember
  78.7                   107€
   19.                                     Yes€

 100.                    136               Total€




                                               B - 5€
608.      You didn' t like the plan you were in?

  Percent              Response
                                             Beneficiaries didn t remember
   40.4
   55.                                       Yes€

  100.                   136                 Total€


          Primary reasons why beneficiaries disliked their HMOs:€
          1. Didn t like the medical treatment.
          2. Didn    t like the doctors/staff.

          3. Didn    t like the services.

          3. Needed the services of a specialist.
          4. Office waiting time     was too long.
          5. Transportation     problems€
          6. Other - various    reasons.



609.      Have you changed health care plans for any other reason we did not mention?€

  Percent              Response€
   81.6                  111€
   18.4                                      Yes€

 100.                    136                 Total€


700.     Do you plan to change from (CURRENT HMO PLAN) to another plan? €
            , why?

  Percent              Response€
  86.                    118€
   13.                                       Yes€

 100.                    136                 Total€


         Primary reasons for the forthcoming change in HMOs:€

          1. Moving - 3
         2. Desires plan that     allows beneficiary to select Doctor - 2
         3. Need plan      closer to home - 2€
         4. HMO too expensive - 2


                                                  B-6
          5. Other or No reason provided   -4
          6. Plan went out of business
          7. Beneficiary disliked the treatment or services provided by the HMO.
          8. Shopping for maximum services
          9. HMO changed beneficiary s primary doctor 4 times in three years.
          10. Beneficiary couldn t get an appointment with the doctor.


800.	     Is there anything else you would like to tell us about why you have changed
          HMO plans in the past?

  Percent           Response
   71.3
   28.                                 Yes

  100.                136              Total




                                             B - 7

                               APPENDIX C€
                             HMO ENR 0 U.MENT
                     SURVEY OF SOUTH FLORIDA PHYSICIANS


For information on why physicians thought beneficiaries changed HMO plans so
frequently, we developed a survey instrument and mailed questionnaires to 217
physicians practicing in the South Florida area. One hundred and two responded.
The responses are shown below.

Primary County of Practice?

        PHYSICIANS                          RESPONSE
       RESPONSES                           PERCENTAGE                    COUNTY
                                                43.              Dade
                                                31.4             Broward
                                                                 Palm Beach
                                                                 Pinellas
                                                                 Hillsborough
                                                 1.9             Pasco
                                                                 No Response
               102                             100.              TOTAL

PLEASE PROVIDE ANSWERS TO THE FOlLOWING QUESTIONS.

1. In your   clinical practice, are you:

 RESPONSE

      96 Currently affiliated with a Health Maintenance
             Organization (HMO) or other prepaid health care plan?

             Nature of your affiliation:

                                           Contractual
                                           Salaried
                                           Other:
                                           - Fee- For- Service
                                           - Capitation


                                               C - 1

                                No Response

       Not currently affiliated with an HMO but have been in the past 3 years?

       Not affiliated with an HMO and have not been in the past 3 years?


   Name of plans with which you are/were affiliated?€

RESPONSE

   45 HUMANA GOLD PLUS PLAN in Dade , Broward, & Palm Beach
       counties service area
   10 HUMANA GOLD PLUS PLAN in PineIIas , Hillsborough, & Pasco
      counties service area
   28 CAC- RAMSAY
   64 AV-MED HEALTH PLAN
   58 HEALTH OPTIONS OF SOUTH FLORIDA
   52 CAREFLORIDA (formerly Heritage)
   23 OTHER(S):
       16 - METLIFE
        7 - PRU- CARE


   Do you serve Medicare patients?

RESPONSE

   102 YES
    0 NO


   What are the reasons you believe Medicare beneficiaries ENROIL in HMO
   plans?

RESPONSE

   75 - Reduced costs of services.
   19 - Unlimited free care.
    3 - Improved advertising campaigns.
    2 - Avoidance of paperwork.
    1 - False advertising.€
    1 - Other answers not listed/no answer.
    1 - AIl medical services in one place.




                                     C - 2€
   What are the reasons you believe Medicare beneficiaries DISENROIL from
   HMO plans?

RESPONSE

   31 - Quality of care issues.€
   19 - Restrictions and limitations on services.€
   17 - Limited doctors available , especially consultants.€
   11 - Disenchantment with plan.€
    7 - No answer€
    6 - Misunderstanding of plan and/or benefits.€
    6 - Unrealistic expectations of plan.€
    5 - " Snowbirds " (moving in and out of area)


   Data maintained by the Health Care Financing Administration show a small
   percentage of Medicare beneficiaries ENROlL AND DISENROIL in HMOs
   numerous times. Why do you think they do this?

RESPONSE

   25 - Looking for better plan.
   19 - No other answer.
   17 - Manipulated by salesman.
   13 - Quality of care issues.
   10 - Misunderstanding of system/plan.
    9 - "Snowbirds " (moving in and out of area)
    5 - Unrealistic expectations of plan.
    3 - Dementia
    1 - Propaganda through media.

   What are the effects on health care quality for patients who move in and out of
   HMOs, or between HMOs, frequently?

RESPONSE

   85 - The effects of frequent movement on medical care would be:
        61 - Lack of continuity of care.
        15 - Degrading quality of care.
         6 - Duplication of test and/or procedures.
         3 - Uncontrolled medical records.

   10 - Quality of medical care is not necessarily affected.
    7 - No other answer or other.
   19 - Doctor provided additional comments.




                                      C - 3€
                              APPENDIX D€
                    EFFECf OF HUMANA ON DATA ANALYSIS


 Beneficiaries in the Miami area have five HMO plans to choose from. The unusually
 high rate at which they change plans reflects the availability of several competing
 plans.€

 Humana s Florida enrollment is five to 14 times larger than the Miami area HMOs
 included in this study. Because no data was available on Humana s enrollee
 population in the Miami area only, the Humana figures can skew the analysis of
 HMO-to- HMO turnover in the Miami area.

 The following analysis , therefore , treats Humana separately, and demonstrates the
 effect of its Florida-wide experience on the turnover analysis. Excluding the Humana
 population , of all Medicare beneficiaries who disenrolled from their HMOs within 12
 months of enrolling, 26% went to Medicare s fee- for-service coverage and remained
 there for at least one year. Sixty percent immediately enrolled in another HMO; and
 the remaining 14% moved to fee- for-service coverage , but once again joined an HMO
 within 12 months. Figures for the Humana Florida-wide HMO , its Miami area HMO
 competitors and all five HMOs combined are shown below.

 The figures for Humana , which include its Tampa/St. Petersburg, Orlando and Daytona
 markets where there are no HMO competitors , are quite different. Due to Humana
 much greater size , including its figures in the overall analysis substantially changes the
 conclusion regarding beneficiary enrollment patterns.

         HUMANA FLORIDA - WIDE COMPARED TO ITS MIAMI AREA COMPETITORS
             ACTIONS OF MEDICARE BENEFICIARIES WHO DISENROLLED
                                                                              Went To
                               Went To
                                                       Went To              Fee-For-Svc.
                             Fee-For-Svc.€
                                                      Competing              But Joined
                             For At Least
                                                        HMO                 HMO Within
                              12 Months
                                                                            12 Months
Humana (FL                           56%€                     19%                   25%€
Wide)€
Miami Area HMO
Competitors                          26%€                     60%                   14%€
All 5 HMOs€
Combined                             44%€                     35%                   21%€




                                             D - 1€
Even though Medicare HMO enrollees in South Florida disenroll from their HMOs with much
greater frequency than their peers nationwide (28% disenrollment within one year in South
Florida vs. 16% nationwide) their loyalty to the HMO form of coverage is remarkably high.
Figures from this inspection show that nearly 3/4 of all Miami area beneficiaries who leave
HMOs and have other HMOs available join another HMO immediately or within the next 12
months.




                                          D-2
                               APPENDIX E€
                           COMMENTS TO DRAFT REPORT


Comments on the draft report were received from HCFA and the Assistant Secretary for
Planning and Evaluation (ASPE). Both agencies agree that HCFA should identify and review
frequent enrollment changes , and HCF A believes they now have that capability. While ASPE
supported the concept of a " cooling off' period for Medicare enrollees , HCF A thinks a
 cooling off' period is not needed.

Neither agency concurred with the other recommendations. We will defer our comments on
their responses until the OIG completes its national study on HMO disenrollments (OEI-06-
91- 00730).

We have responded to each of the technical changes suggested by HCFA and ASPE.




                                           E - 1

..                                                                                --- --         U--------f-~/---~.r-
                                                                                                                                     ...        (,    """"
                                                                                                                                                      --;;
                                                                                                                                                           c.,C/
                                                                                                                                                       /;r~..,..-
                                                                                                                                                      .:.;:.
                                                                                                                                                       - ~     ..-   ...,
                                                                                                                                                               ::': ...,
                                                                                                                                                               ,..., :::"




                   DEPART.'t\ENT OF HEALTH &. HU!Y\AN SERVICES                                                                         ' 0' '   9'c
                                                                                                 f1.                                                    &"Jl~~/
                                                                                                                                Washington .
     ::::i                                                                                                                                      D. C.    20201



                                                MAY 2 9 1991                     l:"~u
                                                                                 D!&::\S
                                                                                           ?1"                                                        ::7'1
                                                                                 OIC-
             TO:           Richard P. Kusserow                                   AIG-                                                                                       :;:0
                           Inspector General                                     aGo/ IG
                                                                                                                                                               G) ;;,
                                                                                                                                                                            C")
             FROM:         Assistant Secretary for                               EXSEC €

                                                                                 DATE SENT
                                                                                                                        cr (3   I
                             ~~ v, c:::::
                           Planning and Evaluation

             SUBJECT:      OIG Draft Reports: Marketing Practices and                                       Enrollm~t                                          . 8j

                           Patterns for South Florida HMOs ,                                     OEI-04-91~00630 an~                                                ;:1
                           OEI-04-91-00640 -- COMMENTS
             I appreciate the opportunity to comment on the reports. In

             general, they appear to point more to the need for improved data

             collection, closer moni taring and follow-up, particularly
             disenrollment patterns, than for. implementation of new
             procedures.   consequently, ~ I am inclined to disagree with certain
             of your recommendations, as noted below.
                          OEI-04-91-00630:                      Marketina Practices
                                HCF~ to establish standards for sales force
                                training and moni                         taring: I
                                                            understand that HCFA
                                has worked informally with the Group Health
                                Association of America to improve marketing
                                practices of HMO sales representatives nationally.
                                Responsibility for oversight of marketing staff
                                rests with state licensing agencies.
                                 Limi      t enrollment to one "open season" per year.
                                This recommendation would require legislation and
                                has the appearance of a year-long lock-in which
                                Congress has constantly rej ected. Moreover,
                                 section 6206 of OBRA-89 eliminated a coordinated

                                open enrollment requirement, which had never been

                                 imolemented, exceot under certain circumstances.
                                continuous open e ;rollment        in  competi ti ve markets
                                allows beneficiaries to select the benefit package
                                that best fits ~~eir needs, regardless of when

                                that decision is reached (and,          given the data on
                                                     Miami Area HMO I S report, at most,
                                page a of the 


                                sales representatives appear responsible for 

                                                                                                                                                only
                                20 percent of changes compared with nearly three
                                times more who expressed dissatisfaction regarding
                                HMO physicians or                           services).
                                                               Admittedly, this
                                practice  requires closer mcni taring against
                                abus i ve marketing practices.


                                                                 E - 2€
          . . . - ---.




Page 2 - Richard P. Kusserow

                         Based on the preceding comment, I agree that HCFA
                         should establish systems to identify and review
                         cases of frequent enrollment change. Cases in
                         which marketing abuses are suspected should be
                         reported to state licensing agencies.
                         ~hird party handling of HMO enrollment actions:
                         Except for existing authority to disenroll at

                         social Security District Offices, closer

                         moni toring and fallow-up would be preferable.
                         OtherJise, responsibility for training

                         salespersons and the question of payment for these

                         services arise.
                         I support the concept of a "cooling off" period

                         for Medicare risk enrollees.


           OEI-O4-91-00640:           Enroll ment Patterns
                         This analysis indicates the need for mare data

                         collection, closer monitoring and fallow-up. The

                         inability to segregate the Miami Area enrollment

                         for Humana makes it difficult to interpret the

                         resul ts .
           Editorial Comments


           Regarding both reports, I suggest that OIG staff

           solicit technical assistance from HCFA/Office of

           Prepaid Health Care operations and oversight on the

           "Background" sections which distinguish fee-for-service

           from prepaid health             plans.
                                       See, for exa~ple, the
            ttached pages.


                                       "L---
                                           Manin H.   Garry

Attachments




                                             E - 3

\ .   ..
      ""'.                                                        ,~" .."'       ..:..

                                                                           '-1 ) \
                                                                                         ~~
                                                                                       ~'- iD (b-
                                                                        - --. -- :;:- :::;
                                                                                                  c\')
                                                                                                       .' ('            ~.



                                                                            ~ Cu1'\~--?CV '\
                                                                                                     Health Care \-\ c:: 't)
                                                                                                                           1-\ '


                DEPARTMENT OF HEALTH &. HUMAN SERVICES      ,\:'::l":i'
                                                   I:.FF::::: CF
                                                                        I": ;-
                                                                                         , .:!J Financing-Administration
                                                                                           ::C




      :::-i                                                                                          Memorandum
               AUG I 5 199(
                                                                            . 1/ ; :1 :C: 28
        Date
               Gail R. Wilensky, Ph.          -i) )

                                               V'-"
        From   Administrator 1




                                            Marketing Practices and Enrollment Patterns for South
        Subject OIG Draft Reports: "
               Florida     HJ.\t10s " (OEI- O4- 91- 00630 and OEI- 04- 91- 00640)


               InspectOr General
               Office of the Secretary




                  We have reviewed the above referenced draft reports evaluating Health
               Maintenance Organization (HNfO) marketing practices for South Florida and HMO
               enrollment patterns in the Miami area. As an overall comment on each of the
               above reports , we view the findings as generally positive in that they dispel many
               the erroneous preconceptions about the marketing and enrollment practices of

               Medicare-contracting HM:Os in the South Florida area.

                    Given the positive nature of the reports, we do not believe                  that the findings as

               reported in the two reportS warrantall of the changes in the Medicare HMO
               program suggested by OIG. However, we agree with one of your recommendations.
               Our specific comments on the reports ' recommendations are attached for your
               consideration.

                 Thank you for the opportunity to comment on these reports. Please advise us of
               whether you agree with our position on the reports ' recommendations at your
               earliest convenience.



               Attachment



                                  PDIG
                                   DIG-AS
                                 .;:DIG-E!.
                                   DIG-QI
                                   AIG-MP



                                  EX~
                                   QGC/IG
                                       91
                                  ID~..;~....
                                                       v'




                                                               E - 4€
                                                               , "




               Comments of tpe Health Care Financing      Administration
                             on OIG Draft Reports:
                             Marketing Practices and
                     Enrollment Patterns for South Florida HMOs
                       (OEI- O4- 91- 00630 and- OEI- O4- 91- 00640)



Recommendation 1 is contained only in OEI- O4-91- 00630.      Recommendations 2
through 5 are contained in both OIG reports.

Recommendation
                                                                 monitoring, and hold
HCF A should establish standards for sales force training and
HMOs accountable for maintaining those standards.

HCF A Response

We do not believe it is appropriate or necessary to prescribe more than the general
                                                                              HCF A
standards for sales activities of organizations that are already required for
                                                                   practices that lead
contracts. HMOs are currently held accountable for marketing
to erroneous and uninformed enrollments. Without effective sales force training
and monitoring, an HMO will be subject to contract termination, intermediate
                                                                         failures.
sanctions, and/or civil monetary penalties for marketing and enrollment provide
Under the authority of 42 CFR ~417.428(a), which requires an HMO to
                                                                                     a

written statement of rules " and other information for beneficiaries to make an
                                                                  actions to
informed decision about enrollment, " HCF A has taken a number of
correct problems found at individual HMOs.

In Southern California, for example, where there have been problems with
                                                                  after-sale ) enrollment
beneficiaries not understanding lock- in, an after- the- fact (i.
verification process is the norm among all HMOs in the      area, and the situation has
                                                                  Similarly, for
improved as a result of the efforts of the HCF A regional office.
Humana Medical Plan of Florida, we believe that marketing practices have
significantly improved since October, 1990 (after the OIG
                                                          survey of beneficiaries) as
a result of Humana   s working with the HCFA regional and central office staff, in
conjunction with intensified monitoring of the Plan. HCF A was successful in its
                                                                  of certain
efforts to encourage Humana to set up its own internal monitoring
operations , and we can monitor Humana through its internal reportS.




                                           E - 5

 Page 2


We believe the regulation of insurance and HMO sales agents is more properly a
State function and we wish to note that many States impose requirements on HM:O
marketing personnel and brokers. Florida has taken a number of steps to prevent
marketing abuses, including a requirement that there be certification of enrollment
in a Medicare H110 by someone other than a sales agent.

Finally, we do believe our civil monetary penalties (CMP) and intermediate
sanctions authority in this area could be expanded. Currently, although CMPs and
intermediate sanctions can be applied against entities that provide false information,
we do not have that authority in regard to entities that engage in door- to-door
marketing or that offer gifts or payment- of more - than- a nominal value to induce
enrollment. In addition, we currently only have the authority to impose a CMP
against an entity; we do not have the option of imposing a CMP against an
individual, such as a sales agent. We are submitting an A- 19 to the Department
which addresses these issues. We would hope that you will support our proposal.

Recommendation

HCF A should establish a policy limiting enrollment to one " open      season
(opportunity to enroll) per year.

HCFA Resuonse

We do not believe that OIG findings, which show that a minority of HMO enrollees
have had multiple H110 enrollments , are sufficient cause to make a major policy
change in HCF A' s approach to beneficiaries ' ability to choose HMO enrollment as
a Medicare option. The OIG found that switching from one plan to another, even
on a frequent basis , is not necessarily indicative of marketing or enrollment abuses
                                noted above. Where "ping- ponging" does in fact
but rather beneficiary choice, as
result from marketing or enrollment abuses , HCF A has the means to require an
HMO to cease such practices.
A hallmark of the Medicare fee- for-service program is the beneficiaries ' freedom of
choice of providers.Beneficiaries who choose to enroll in a Medicare risk-based
HlVfO consciously choose to r~ceive care from only the fThtfO providers , in order to
minimize their administrative burden and to benefit from lower out-of- pocket costs.
Under current law, it should be noted that   they are   able   to exercise the choice
betWeen HMOs and fee- tor-service at any time, if they choose to disenroll from an
HM:O. However, there are limitations under current law, if an HNfO conducts only
the minimum 30- day required annual enrollment period.




                                         E - 6€
Page 3

HCF A has traditionally viewed the HMO option as a choice that is available on a
voluntary basis to beneficiaries residing in areas where Medicare HMOs are
available , and we have left it up to the HM:Os to decide whether they preferred a
policy of enrollment other than on a year-round
                                                , continuous basis. Curr~ntly, only
                                                                     based HNfOs.
3 percent of Medicare beneficiaries are enrolled in Medicare risk-
HNfOs that have a capacity to conduct continuous open enrollment should be
allowed the option of flexible enrollment periods , since it expands beneficiaries
choices.

A legislative change would be necessary to impose a single open enrollment period.
Since 1985 (the first year of " TEFRA" Medicare risk contracting), Congress has
changed the original provisions of the Social Security Act relating to Medicarebased
HNfO enrollment and disenrollment. Congress mandated that Medicare risk-
                                                                      HNfO (to
I-llvfO enrollees have the right of immediate disenrollment from the
                                                                                 60 days).
replace the previous provision that could delay a disenrollment for up to
Congress also did away with a coordinated open enrollment period requirement
(introduced in the Deficit Reduction Act of 1984). The intent of Congress has
                                                               choosing the HNfO
been consistently to give beneficiaries maximum flexibility in
option while giving HJYl0s the leeway to determine the appropriate enrollment
periods.

Recommendation

HCF A should establish an on- line system to identify and review
                                                                      cases of frequent
enrollment change.


HCF A ResDonse

HCF A has developed such a capability. The Managed Care Option Information
(MCCOY) Group Health Plan (GHP) System provides online management
information reports and the capability to update beneficiary enrollments
                                                                         this system
disenrollments, health status indicators and residence codes. We believe
satisfies the intent and spirit of GIG' s recommendation.

Recommendation

In the three-county       Miamiservice area , HCF A should test the efficacy   of a third

rqrty handling        HMO enronment actions.




                                               E - 7

 Page 4

 HCF A Response

 Ti1C efficacy of a third party enrollment process has been tested and many problems
 were found. We do not      believe that the GIG' s findings warrant anotlier test
 because this problem affects a small number of beneficiaries.        In the vast majority
 of cases (72 percent), the beneficiary initiated the first contact with an fllyfO. A
 third party enrollment process would be more appropriate in a situation where the
 fllyfO contacts the beneficiaries first, in the majority of cases.

  If enrollments were the responsibility of a third party, such as the Social Security
  Administration (SSA) (as OIG suggests), the level of enrollment activity in the
  Miami area would make the function a massive undertaking in terms of personnel
  and costs (costs currently financed through the HCF A capitation payments made to
  the HM:Os). Unless the third party could fairly present each HMO' s advantages
. competition in the marketplace could be stifled. ; HCFA would also have a new
 monitoring responsibility of assuring that the third party was properly enrolling
 individuals in the appropriate HNfO, etc.

 The OIG may    wish to consider the findings of the General Accounting Office
(GAO) in its evaluation of the HealthChoice demonstration project in Oregon and
California-a demonstration of the use of a third-party broker for Medicare HMO
enrollment. Problems that the GAO pointed out included the questionable
authority for HCF A' s financing the project, unfair treatment of fllyfOs (those paying
the broker for its services versus those that did not), inadequate Privacy Act
safeguards , and the erroneous impression given by the broker that it was an agent
of the Government. Many of the GAO objections would be obviated if SSA were
the third party, but having SSA function as an HMO broker is itself problematic
beginning with the difficulty of getting SSA to agree to undertake such a function.
(Please note that the SSA HM:O disenrollment function was a legislative mandate.

Recommendation

HCF A should impose a " cooling off' period allowing beneficiaries to reconsider
IDfO enrollment decisions before enrollment applications       are processed.


HCFA Response

 An official " cooling off' period is not needed. If a beneficiary does change his or
 her mind, there is usually a certain time lag between the marketing presentation
 and the time the enrollment is actually transmitted to HCF A; a timely cancellation
is therefore possible. HCF A also permits retroactive disenrollment of beneficiaries
 for good cause (for example , failure to fully understand lack- in) if there has not
been a fully informed decision to ~nroll in an HNfO.

                                            E-8
                                         COMMENTS


General

      The beneficiary sample of 237 Medicare beneficiaries was taken over a 36-month
      period ranging from October 1 , 1987 to September 30 , 1990. During this period , 1
      percent of enrollees (1 866 enrollees out of 182 405) were enrolled 4 or more times in
      South Florida HMOs. Nationally during this same period . 3 percent (2 276 out of
      881 861) were enrolled 4 or more times in an HMO. Non- South Florida HMOs during
      the same period had . 1 percent of their enrollees enrolled 4 or more times in HMOs.
      South Florida enrollees thus have enrolled in 4 or more HMOs over the above noted 3-
      year period at a rate 10 times the national   average.


      It should always be kept in mind when looking at Medicare enrollment patterns in
      South Florida that:

          Medicare enrollees in South Florida are able to change physicians (and HMOs
          almost as freely as a Medicare fee- far-service enrollee. Most HMOs in South
          Florida charge no premium to the Medicare beneficiary nor is an individual
           locked- " to any HMO longer than 30 days before a change can be made to
          another HMO.

          As we emphasized above ,    evidence of frequent change of enrollees is not
          necessarily evidence of illegal ar unethical marketing practices.

      The report often refers to activity in South Florida as being higher than the national
      average. It is important to recognize , as noted above , these higher activity levels may
      be unique to the South Florida market where five " zero premium " plans compete
      intensely for enrollees , or they may be indicative of " normal" conditions in a highly
      competitive market. The Southern California market most closely resembles the market
      studied. Perhaps a comparison of these two areas would be useful.

      OIG Response: We added a section that describes the uniqueness of the Miami market
      to the Background of the report.

      Page 4 states that Humana data are not included in parts of the analysis since there was
      no way to distinguish South Florida from other parts of the service area. We believe
      that analysis of South Florida data without Humana figures presents less than a
      complete and accurate picture of the situation.

      OIG Response: Humana has four separate service areas in Florida: Miami, Tampa,
      Orlando, and Daytona. The HCF A data base combines enrollment data for all four
      service areas. It does not distinguish the separate service areas. Therefore, it was not

      possible to identify Humana enrollment data for Miami alone. Appendix D shows the
      effect of including the Humana data that represents all of Florida.



                                            E - 9

Specific

       Page i

       AIthough five TEFRA risk contractors serve the area, it should be noted that Medicare
       beneficiaries may also be members of HMOs or other entities which are not Federally
       qualified. In paragraph three of the BACKGROUND section , sentence three should
       read " Beneficiaries enrolled in risk-based HMOs are considered to be " locked in...

       DIG Response: We have revised            the sentence.


       Page 3


       Comprehensive American Care is now CAC- RAMSA Y, Inc.

       DIG Response: We have made that change throughout the report.

       Page 5


       TEFRA risk-based contract enrollment is now approximately 1.3 million , and was about
       the same level during the period of the GIG study.

       OIG Response: We revised            the figure,   and adjusted the percent enrolled in Miami
       HMOs.

       Page 8


           only four of the 237... "   Since only 136 responses   were received , should this be 136?

       OIG Response: We have made the correction.

       Page 9


       How many of the 16 000 beneficiary inquiries were complaints? Of those , how many
       were legitimate complaints about enrollment and disenrollment? Of the 1 500
        potentially fraudulent" HMO enrollments and 1 800 failures to disenroll , how many
       provided , upon investigation , to be the fault of the HMO?

       It is not clear what is meant by the potentially inflammatory term " inappropriate " in
       sentence two of the final paragraph. What is the basis on which HCF A (and which
       HCFA component) has estimated that 20 percent of enrollments or disenrollments are
       inappropriate?

       OIG Response: We revised the report to show that Region IV HCFA provided the
       estimates cited.



                                                    E - 10

      APPEND IX A

      Page A-    , last paragraph. The data reflecting at least four enrollments actually means
      at least three changes , since the individual would have been in an HMO on the starting
      date of the study period. Another data run with a threshold of 4 changes would likely
      show significantly fewer beneficiaries involved.

      DIG Response: We acknowledge that a data run with a threshold higher than fom
      would likely show fewer beneficiaries. A threshold of fom was chosen for this study.

      APPEND IX B

      The small number of responses (136) and the use of proxy information raises questions
      of overall value of the information gained.

      It is important to distinguish which of the various operational elements of the Plan
      influence the enrollment and disenrollment process (e. , marketing agency activity,
      member services , as well as the health care providers). In this way, specific problems or
      perceptions can be more accurately attributed.

      DIG Response: Our survey of beneficiaries did not identify the specific operational
      element that influenced the enrollment and disenrollment activity. Appendix B reports
      each reason they gave us for changing HMOs.€

10.   Page B- 7

      The chart is incomplete. There are 8 responses identified , but only seven are reflected
      in the chart.


      OIG Response: We have deleted the chart as it duplicated information found€
      elsewhere in Appendix B.

11.   APPENDIX C

      Appendix C should be deleted form the report as well as references to Appendix C in
      the body of the report. Appendix C: HMO Enrollment Survey of South Florida
      Physicians sought to ascertain "why physicians thought beneficiaries changed HMO
      plans so frequently. "   Physicians have   no reason to determine , and perhaps no way of
      ascertaining, why a patient left them if the first they learn of the patients ' departure is
      from the physicians panel , through a deletion from an eligibility listing, or a request for
      records transferral from another physician.




                                                 E - 11
Therefore , the evaluation of a physician s assessment of why a Medicare enrollee left
one HMO to join another is anecdotal at best and certainly not informed or statistically
valid. It would have been more effective to ask the HMOs themselves the reasons for
enrollee disenrollment , rather than asking the physicians.

OIG Response: We surveyed     physicians to obtain   their opinions on not only the
reasons beneficiaries change HMOs, but also on the effects of rapid turnover.




                                     E - 12

